           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



  TITLE II DECEASED BENEFICIARIES WHO
  DO NOT HAVE DEATH INFORMATION ON
              THE NUMIDENT

       July 2012    A-09-11-21171




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      July 9, 2012                                                          Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Title II Deceased Beneficiaries Who Do Not Have Death Information on the Numident
           (A-09-11-21171)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration (SSA) had
           adequate controls to ensure death information for Title II deceased beneficiaries was
           recorded on the Numident.

           BACKGROUND
           Title II of the Social Security Act (Act) provides monthly benefits to retired and disabled
           workers, including their dependents and survivors. 1 Benefits are not payable for the
           month of a beneficiary’s death or later. 2 Upon receipt of a death report, SSA terminates
           the decedent’s benefits and initiates recovery for any payments issued after death. 3

           To identify and prevent erroneous payments to deceased beneficiaries, SSA’s Death
           Alert, Control and Update System (DACUS) matches reports of death received from
           Federal, State, and local agencies against SSA’s Master Beneficiary (MBR) and
           Supplemental Security Records (SSR). DACUS also processes death reports from
           internal sources (for example, the MBR). 4 Finally, SSA records the death information




           1
               The Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
           2
               The Social Security Act § 202(a), 42 U.S.C. § 402(a).
           3
            SSA, POMS, GN 02230.018 (July 22, 2010), GN 02408.005.C (November 3, 2008), GN 02408.010
           (November 3, 2008).
           4
            SSA, POMS, GN 02602.060 (May 13, 2011). The MBR is an electronic record of all Title II
           beneficiaries. The SSR is an electronic record of all Title XVI beneficiaries.
Page 2 - The Commissioner

processed by DACUS on the Numident, a master file that contains personally
identifiable information (PII) 5 for each individual issued a Social Security number
(SSN). 6

SSA uses death information from the Numident to create a national record of death
information called the Death Master File (DMF). 7 SSA also uses death information from
the Numident during its Annual Wage Reporting process to determine whether wage or
self-employment reports are erroneous. Finally, E-Verify, an Internet-based system,
uses death information from the Numident to allow employers to determine newly hired
employees’ eligibility to work in the United States.

For our audit, we identified approximately 1.2 million 8 deceased beneficiaries who had a
date of death on the MBR but did not have death information on the Numident (see
Appendix B).

RESULTS OF REVIEW
SSA needs to improve its controls to ensure it records beneficiaries’ death information
on the Numident. Specifically, we determined that SSA did not record death information
on the Numident for approximately 1.2 million deceased beneficiaries. As a result, as
many as

•     1.2 million deceased beneficiaries were not on the DMF, and

•     681 deceased beneficiaries had earnings on the Master Earnings File (MEF) for
      Calendar Year 2010 that were recorded 1 or more years after their deaths (see
      Appendix C).

Finally, 23 employers made 30 E-Verify inquiries for 23 deceased beneficiaries and did
not receive any indication that these individuals were deceased.

Generally, the deaths were not on the Numident because the beneficiaries’ PII on the
MBR, SSR, or death report did not match the beneficiaries’ PII on the Numident. We
also found that SSA staff incorrectly deleted death information of deceased
beneficiaries from the Numident.



5
 PII is any information that can be used to distinguish or trace an individual‘s identity, such as name,
SSN, date and place of birth, or mother‘s maiden name.
6
    SSA, POMS, GN 02602.060 (May 13, 2011).
7
    SSA, POMS, GN 02602.060.B.1 (May 13, 2011).
8
 The 1.2 million beneficiaries died between 1980 and 2010. The number of deaths per year ranged from
64,564 in 1989 to 14,724 in 2010.
Page 3 - The Commissioner

MISSING NUMIDENT DEATH INFORMATION FOR DECEASED BENEFICIARIES

From the population of approximately 1.2 million deceased beneficiaries whose benefits
had been terminated for death on the MBR, we selected a random sample of 50 for
review. Our review found that SSA properly terminated the benefits for all
50 beneficiaries; however, the death information was not on the Numident. Specifically,
for 39 of the 50 beneficiaries, SSA either obtained proof of death or verified the
accuracy of the death report, as required. 9 For the remaining 11 beneficiaries, we found
no evidence in SSA’s records that the death information on the MBR was incorrect. The
benefits for 11 beneficiaries had been terminated for at least 4 years. On average, all
50 beneficiaries had been deceased for 16.5 years. 10 The minimum time since their
deaths was 1 year, and the maximum was 31 years.

Based on our sample results, we expect the death information for most, if not all, of
these 1.2 million deceased beneficiaries was not on the Numident (see Appendix C).

Missing Death Information Reduces the Effectiveness of the DMF

Upon receipt of a valid death report, SSA should terminate the decedent’s benefits and
record his/her date of death on the Numident. SSA then uses the death information
from the Numident to create the DMF. 11 The DMF includes the decedent’s SSN; dates
of birth and death; and first, middle, and last name. SSA provides the DMF to the
Department of Commerce’s National Technical Information Service, which in turn, sells
DMF data to public and private customers who can purchase the complete DMF and
subscribe to periodic updates for an additional cost. 12

Various Federal entities rely on the DMF to detect unreported deaths and verify the
accuracy of reported deaths. This includes four benefit-paying agencies—the Railroad
Retirement Board, Department of Defense, Office of Personnel Management, and
Department of Veterans Affairs. SSA also provides the DMF to the Centers for
Medicare and Medicaid Services, Government Accountability Office, and Internal
Revenue Service (IRS). Private industry customers including banks, hospitals,
universities, and insurance companies, use the DMF to verify identity and prevent fraud.
Finally, in June 2010, the President directed Federal agencies to ensure they thoroughly




9
    SSA, POMS, GN 02602.050 (January 23, 2012).
10
     The mean was 16.5 years. The median was 17 years.
11
     SSA, POMS, GN 02602.060.B.1 (May 13, 2011).
12
  http://www.ntis.gov/products/ssa-dmf.aspx. Beginning in November 2011, SSA no longer provides
death information to the National Technical Information Service to sell to public and private customers if a
State record is the only source of death.
Page 4 - The Commissioner

review available databases with relevant information on eligibility before they release
any Federal funds. At a minimum, agencies shall, before payment and award, check
the existing databases to verify eligibility, including SSA’s DMF. 13

Any beneficiary death recorded on the MBR, but not on the Numident, is not on the
DMF. As a result, Federal and private entities that rely solely on the DMF to detect
deaths would not know these individuals were deceased. Our review confirmed that as
many as 1.2 million deceased beneficiaries are not on the Numident and therefore not
on the DMF. This missing death information could result in erroneous payments made
by Federal benefit-paying agencies that rely on the DMF to detect inaccurate or
unreported deaths. The missing death information will also hinder private industry and
State and local governments’ ability to identify and prevent identity fraud.

Missing Death Information Reduces the Effectiveness of the Earnings After Death
Program

SSA receives earnings reports from employers and records valid earnings on the MEF.
To determine the validity of an earnings report, SSA compares the name and SSN on
the earnings report to information on the Numident. In addition to verifying an
individual’s name and SSN, SSA reviews the Numident to determine whether the
individual is deceased. Generally, when the Numident contains a date of death and the
year of death is before the year of the reported earnings, the earnings are placed in
SSA’s Earnings Suspense File as an earnings after death (EAD) record.

For any EAD, SSA investigates and attempts to resolve the reported earnings. SSA
sends a notice to employers, employees, and self-employed individuals to verify
employment. If the employer states the individual is working for them but does not
provide adequate information to resolve the issue, SSA sends a notice to the employee
requesting that he/she contact SSA to correct the earnings information. If SSA can
resolve the earnings, it records the wages to the proper SSN. If the employer informs
SSA the individual is deceased, SSA instructs the employer to refund the employee's
share of the Social Security taxes to the employee's estate or next of kin.

    Earnings Were Incorrectly Recorded on the MEF for Deceased Beneficiaries – We
found that since 2001, 1,556 deceased beneficiaries had 7,286 earnings reports with
total earnings of about $158 million recorded on the MEF for 1 or more years after their
deaths. This occurred because their deaths were not on the Numident and therefore
not detected by the EAD program. The following table shows the year, the number of
earnings reports, and amount of earnings on the MEF for 1 year or more after the
beneficiaries’ deaths.




13
     Presidential Memorandum-Enhancing Payment Accuracy Through a “Do Not Pay List” June 18, 2010.
Page 5 - The Commissioner

      Deceased Beneficiaries with Reported Earnings 1 or More Years After Death

             Year           Number of Earnings Reports                 Amount of Earnings
             2001                       749                               $12,127,513
             2002                       731                               $12,962,756
             2003                       753                               $13,798,676
             2004                       726                               $13,967,638
             2005                       739                               $15,606,449
             2006                       742                               $17,139,585
             2007                       730                               $18,477,604
             2008                       724                               $18,751,900
             2009                       711                               $17,789,092
             2010                       681                               $17,875,278
            TOTAL                     7,286 14                           $158,496,491

For 2010, 681 deceased beneficiaries had reported earnings recorded on the MEF for
1 or more years after their deaths. From this population, we randomly selected 50 for
review. Our review found that 35 (70 percent) of these beneficiaries incorrectly had
earnings recorded on the MEF after their deaths. 15

We found that for 12 of the 35 beneficiaries, the employers had incorrectly reported
earnings as wages. For example, employers incorrectly reported royalties from the
entertainment industry as wages. According to SSA, these earnings belong to the
decedent’s estate and should not be reported to either SSA or the IRS as wages or
self-employment income and therefore should not have been recorded on the MEF.

Individuals were potentially using deceased beneficiaries’ SSNs or employers may have
reported earnings using an incorrect SSN for 23 of the 35 deceased beneficiaries. For
example, SSA had terminated benefits to a beneficiary who died in July 1988.
However, earnings of $141,589 were recorded on the MEF for the beneficiary between
2006 and 2010. In another example, a beneficiary who died in January 1998 had
earnings of $214,416 recorded on the MEF from 2004 to 2010.

For the remaining 15 beneficiaries, SSA had an incorrect SSN on the MBR. We found
that the earnings reported for the 15 SSNs appeared to belong to another individual and
that SSA needed to correct the SSN on the MBR. For example, SSA incorrectly
recorded on the MBR of a deceased beneficiary who was born on September 14, 1909
in Madisonville, Tennessee, and died in October 2001, the SSN of a woman who was
born on July 17, 1990 in Greensboro, North Carolina. In a 2003 audit, 16 we identified

14
     A deceased beneficiary may have had earnings after death recorded for multiple years.
15
  We also reviewed the 35 cases and found that the monthly benefits payable to any survivors did not
increase because of the earnings recorded on the MEF.
16
  Impact on the Social Security Administration’s Programs When Auxiliary Beneficiaries Have incorrect
Social Security Numbers (A-01-03-33020), November 26, 2003.
Page 6 - The Commissioner

problems associated with incorrect SSNs on the MBR and found that SSA needed to
improve controls to ensure it correctly recorded beneficiaries SSNs on the MBR.

Based on our sample results, we expect most, if not all, of these 681 deceased
beneficiaries had earnings recorded on the MEF for Calendar Year 2010
(see Appendix C).

Missing Death Information Reduces the Effectiveness of E-Verify

E-Verify is a Department and Homeland Security (DHS) program that allows
participating employers to verify whether newly hired employees are authorized to work
in the United States under immigration law. E-Verify checks each new hire’s
information against the information on the Numident, including the new hire’s SSN,
name, date of birth, death data, fraud indicator, and U.S. citizenship. If the information
the employers submitted does not match SSA’s records, SSA sends a response to
E-Verify, which in turn, generates a message to the employer that there is a
discrepancy with SSA’s records. This response is known as an SSA Tentative
Nonconfirmation (TNC).

The response sent back to the employer includes the reason for the discrepancy and
instructions for notifying the employee. If the employee decides not to contest the TNC,
the employer may terminate the employee based on E-Verify. However, if the
employee chooses to contest the TNC, he/she has 8 Federal workdays to visit a local
SSA field office to present the documentation required to resolve the discrepancy.

Of the 681 deceased beneficiaries who had earnings recorded on the MEF in 2010, we
found that there were 30 E-Verify inquiries for 23 of the deceased beneficiaries from
23 employers between January 2010 and June 2011. Since these beneficiaries’ deaths
were not on the Numident, the responses to the employers were that the names
matched the Numident, and death data did not exist for these 23 individuals. Therefore,
the response from E-Verify did not indicate that individuals using these 23 SSNs may
not have been authorized to work in the United States.

REASONS FOR MISSING NUMIDENT DEATH INFORMATION

Upon receipt of a death report for a beneficiary, SSA initiates action to terminate
benefits and recover any payments issued after death. If a death report is received
from a first party (for example, family members and funeral directors), SSA terminates
benefits without verification. SSA verifies death reports received from all other
sources. 17 When SSA terminates benefits, DACUS processes the death termination
action. Finally, if the SSN, name, date of birth, and gender on the death termination
action match the Numident, SSA records the death on the Numident.



17
     SSA, POMS, GN 02602.050.A (January 23, 2012).
Page 7 - The Commissioner

    Identifying Information Did Not Match – We reviewed our random sample of
50 deceased beneficiaries to determine why their deaths were not on the Numident.
Our analysis disclosed that, except for the SSNs, identifying information on the MBR
and Numident for 44 (88 percent) of the beneficiaries did not match. However, based
on our review of the records, we concluded that all 44 beneficiaries were, in fact, the
same individuals. Generally, the records did not match because the beneficiaries had
minor differences in names and dates of birth on the MBR and Numident. Specifically,
beneficiaries had used nicknames or married names on one of the records or the year
of birth differed by more than 1 year while all other identifying information matched.

    Identifying Information Matched Within SSA’s Accepted Tolerances – Of the
50 beneficiaries in our sample, 6 (12 percent) had identifying information that matched
between the MBR and Numident. The identifying information matched exactly for four
beneficiaries and was within SSA’s accepted tolerances for two beneficiaries.
Therefore, these six beneficiaries’ deaths should have been recorded on the Numident.

   Analysis of Recent Deaths Not Recorded on Numident – SSA retains a record of any
changes made to the Numident death information in the past 12 months. Therefore, to
determine why deceased beneficiaries whose identifying information on the MBR and
Numident matched, but who did not have their deaths recorded on the Numident, we
provided SSA 20 recently deceased beneficiaries for analysis. According to SSA’s
matching criteria, the death information for 18 of these beneficiaries should have been
recorded on the Numident. The analysis of the 20 beneficiaries found that the deaths
were not on the Numident for the following reasons.

•   SSA employees incorrectly deleted the death from the Numident for 12 beneficiaries.
•   PII matched the MBR but did not match the SSR for four beneficiaries.
•   PII on the MBR was not within SSA’s matching criteria for two beneficiaries.
•   SSA employees subsequently took corrective action to record the death information
    on the Numident for two beneficiaries.

CONCLUSION AND RECOMMENDATIONS
SSA needs to improve controls to ensure it records death information on the Numident
for deceased beneficiaries. Our review disclosed that as many as 1.2 million deceased
beneficiaries’ deaths were not on the DMF. We also found that as many as
681 deceased beneficiaries had earnings recorded on the MEF after their deaths.
Finally, the absence of death information on the Numident reduced the effectiveness of
the E-Verify system and resulted in incorrect responses to employers for 23 deceased
beneficiaries.
Page 8 - The Commissioner

We recommend that SSA:

1. Analyze its death processing systems to ensure it records death information on the
   Numident and determine whether it can efficiently correct any of the 1.2 million
   beneficiary records identified by our audit.

2. Develop a cost-effective method for identifying deceased beneficiaries who have
   death information on the MBR but not on the Numident. This could involve periodic
   matches between the MBR and Numident to detect and correct missing death
   information.

AGENCY COMMENTS
SSA agreed with all our recommendations. SSA also commented that it is working with
the States to ensure more accurate and timely death reports. In addition, SSA has
several initiatives to ensure greater consistency between the name and SSN
information on the MBR, SSR, and the Numident. Finally, SSA plans to evaluate its
death reporting process to identify enhancements to correctly record death information
and efficiently correct death discrepancies between its records. SSA’s comments are
included in Appendix D.




                                    Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology and Results
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                  Appendix A

Acronyms
Act      Social Security Act
CY       Calendar Year
DACUS    Death Alert, Control and Update System
DHS      Department of Homeland Security
DMF      Death Master File
EAD      Earnings After Death
IRS      Internal Revenue Service
MBR      Master Beneficiary Record
MEF      Master Earnings File
OIG      Office of the Inspector General
PII      Personally Identifiable Information
POMS     Program Operations Manual System
SSA      Social Security Administration
SSN      Social Security Number
SSR      Supplemental Security Record
TNC      Tentative Nonconfirmation
U.S.C.   United States Code
                                                                      Appendix B

Scope and Methodology
From the Social Security Administration’s (SSA) Master Beneficiary Record (MBR), we
obtained a data extract of Title II beneficiaries whose benefits SSA terminated for death
and whose MBRs had a date of death. From this extract, we identified a population of
1.2 million deceased beneficiaries who did not have a date of death recorded on the
Numident as of June 2011. The following table summarizes the annual number of
deceased beneficiaries without death information on the Numident since 1980.

                                 Number of Deceased Beneficiaries Whose
               Calendar Year        Death Was Not on the Numident
                   1980                          24,851
                   1981                          25,172
                   1982                          25,475
                   1983                          26,160
                   1984                          26,348
                   1985                          26,782
                   1986                          26,891
                   1987                          27,569
                   1988                          61,360
                   1989                          64,564
                   1990                          62,689
                   1991                          61,059
                   1992                          59,605
                   1993                          59,890
                   1994                          57,492
                   1995                          54,997
                   1996                          55,772
                   1997                          53,421
                   1998                          50,830
                   1999                          48,551
                   2000                          45,919
                   2001                          43,111
                   2002                          41,111
                   2003                          38,520
                   2004                          28,393
                   2005                          25,976
                   2006                          23,236
                   2007                          19,436
                   2008                          17,386
                   2009                          15,506
                   2010                          14,724
                   Total                       1,212,796




                                           B-1
For Calendar Years 2001 through 2010, we identified 1,556 deceased beneficiaries who
had 7,286 earnings reports for 1 or more years after their deaths that were recorded on
SSA’s Master Earnings File (MEF). This included 681 deceased beneficiaries who had
reported earnings in Calendar Year 2010. We verified the 681 deceased beneficiaries
with the Department of Homeland Security’s E-Verify system and identified 30 inquiries
from 23 employers for 23 of these beneficiaries.

To accomplish our objective, we

•   reviewed the applicable sections of the Social Security Act and SSA’s Program
    Operations Manual System;
•   interviewed SSA employees from the San Francisco Regional Office as well as the
    Offices of Earnings, Enumeration, and Administrative Systems; Income Security
    Programs; and Retirement and Survivors Insurance Systems; and
•   reviewed queries from SSA’s MBR, Supplemental Security Record, Numident, and
    MEF for each sample item.

We determined the computer-processed data from the MBR were sufficiently reliable for
our intended use. We conducted tests to determine the completeness and accuracy of
the data. These tests allowed us to assess the reliability of the data and achieve our
audit objectives.

We performed audit work in Richmond, California, between August 2011 and
March 2012. The entity audited was the Office of the Deputy Commissioner for
Systems.

We conducted our audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.




                                          B-2
                                                                     Appendix C

Sampling Methodology and Results
   I.     Missing Death Information on the Numident

From the Social Security Administration’s (SSA) Master Beneficiary Record (MBR), we
obtained a data extract of beneficiaries whose benefits SSA terminated for death and
who had a date of death on the MBR. From this extract, we identified a population of
1,212,796 deceased beneficiaries who did not have a date of death recorded on the
Numident as of June 2011. We selected a random sample of 50 beneficiaries from this
population for review. Our review confirmed that all 50 beneficiaries (100 percent) were
properly terminated for death on the MBR; however, there was no death information
recorded on SSA’s Numident. Based on our sample results, we expect most, if not all,
of these 1.2 million deceased beneficiaries did not have their death information on the
Numident.

   II.    Earnings After Death

For Calendar Years 2001 through 2010, we identified 1,556 deceased beneficiaries who
had 7,286 earnings reports for 1 or more years after their deaths that were recorded on
SSA’s Master Earnings File (MEF). This included 681 deceased beneficiaries who had
reported earnings in Calendar Year 2010. From the population of 681 beneficiaries, we
selected a random sample of 50 for review. Our review found that 35 (70 percent) of
the 50 deceased beneficiaries had erroneous earnings recorded on the MEF after their
deaths. We also found that 15 (30 percent) of the 50 beneficiaries had an incorrect
SSN on the MBR. Based on our sample results, we expect most, if not all, of these
681 beneficiaries had earnings recorded on the MEF for Calendar Year 2010.
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      June 22, 2012                                                           Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Title II Deceased Beneficiaries Who Do Not Have
           Death Information on the Numident” (A-09-11-21171)—INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Amy Thompson at (410) 966-0569.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“TITLE II DECEASED BENEFICIARIES WHO DO NOT HAVE DEATH
INFORMATION ON THE NUMIDENT” (A-09-11-21171)


GENERAL COMMENTS

We believe the report should recognize the advances we have made to improve the consistency
of the death information on our records and death reporting. Highlights of our significant
enhancements follow.

We are working with the States who want, and are able, to build a streamlined death registration
process, known as Electronic Death Registration (EDR). EDR will replace the States’ more
cumbersome and labor-intensive process through which we currently receive death information.
This streamlined electronic process allows States to verify the name and Social Security number
(SSN) of a deceased person and transmit more accurate and timely death reports. Through this
system, we receive death reports within 5 days of the individual’s death and within 24 hours after
the State receives it. We can take immediate action to terminate benefits on these cases. EDR
transactions are virtually error free, and our systems automatically stop benefits without
employee intervention.

EDR has slowly expanded on a State-by-State basis since 2002, and currently 32 States, the
City of New York, and the District of Columbia participate in this initiative. If all States
participated in EDR, future death reporting would be virtually error free. The nationwide
implementation of EDR is contingent on congressional funding of the Department of Health and
Human Services so that it can fund the State grants.

We are also working on several initiatives to ensure greater consistency between the name and
SSN information on the Master Beneficiary Record (MBR), the Supplemental Security Record
(SSR), and the Numident. In September 2012, we plan to implement two automated initiatives
(the Claims Enumeration Mini-Path and Autoclear project and the Internet Claim/CLIENT
Release 5) to improve the integrity of data on the MBR, SSR, and the Numident. The changes
will require personally identifiable information data to match exactly our master records before
approving a claim.

In fiscal year 2013, resources permitting, we plan to begin rewriting our Death, Alert and Control
and Update System. This project will evaluate the death reporting process to identify
enhancements to ensure we post death information correctly on our master records, and
determine how to correct discrepancies in death data between our master records efficiently.

We also believe the report should explain the distinction between the public Death Master File,
which does not include State records, and the death information we share with other Federal
benefit-paying agencies, which does include State records.




                                               D-2
RESPONSE TO THE RECOMMENDATIONS

Recommendation 1

Analyze its death processing systems to ensure it records death information on the Numident and
determine whether it can efficiently correct any of the 1.2 million beneficiary records identified
by our audit.

Response

We agree. As resources allow, we will begin examining the death reporting process.

Recommendation 2

Develop a cost-effective method for identifying deceased beneficiaries who have death
information on the MBR but not on the Numident. This could involve periodic matches between
the MBR and Numident to detect and correct missing death information.

Response

We agree. As resources allow, we will begin examining the death reporting process.




                                               D-3
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division

   Joseph Robleto, Audit Manager

Acknowledgments

In addition to those named above:

   Manfei Lau, Senior Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-09-11-21171.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
